<html>
<title> - THE DIGITAL ECOSYSTEM: NEW PATHS TO ENTREPRENEURSHIP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



          THE DIGITAL ECOSYSTEM: NEW PATHS TO ENTREPRENEURSHIP

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD
                              MAY 9, 2019
                               __________

                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
                               

            Small Business Committee Document Number 116-019
             Available via the GPO Website: www.govinfo.gov
             
             
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-209                      WASHINGTON : 2019    




             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     2

                               WITNESSES

Ms. Kellyn Blossom, Head of Public Policy, Thumbtack, San 
  Francisco, CA..................................................     4
Ms. Erika Mozes, Co-Founder and COO, Hyr, Inc., New York, NY.....     6
Ms. Olivia Omega Wallace, Co-Founder, Wallace Marketing Group, 
  Aurora, CO.....................................................     7

                                APPENDIX

Prepared Statements:
    Ms. Kellyn Blossom, Head of Public Policy, Thumbtack, San 
      Francisco, CA..............................................    25
    Ms. Erika Mozes, Co-Founder and COO, Hyr, Inc., New York, NY.    30
    Ms. Olivia Omega Wallace, Co-Founder, Wallace Marketing 
      Group, Aurora, CO..........................................    32
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
          THE DIGITAL ECOSYSTEM: NEW PATHS TO ENTREPRENEURSHIP

                              ----------                              


                         THURSDAY, MAY 9, 2019

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jason Crow 
[chairman of the Subcommittee] presiding.
    Present: Representatives Crow, Houlahan, Kim, Finkenauer, 
Davids, Balderson, Burchett, and Joyce.
    Chairman CROW. Good morning. The Committee will come to 
order. I thank everyone for joining us this morning. I want to 
especially thank the witnesses for being here today.
    We all know how much the Internet has changed our lives, 
but the most dramatic impact it may have had is the 
opportunities it has provided small businesses. Twenty years 
ago, there was no Google, YouTube, or Facebook, companies that 
started small but eventually turned into major brands. Much of 
this is made possible by the internet and its ability to 
connect people in ways unheard of just a short time ago, 
allowing small businesses to compete with larger competitors.
    One of the first ways small businesses utilize the internet 
to start and grow a business was through the use of digital 
platforms. Digital platforms facilitate commercial interactions 
between suppliers one on end, and consumers on the other. 
Whether it is reaching consumers out of arm's reach, or hiring 
someone to cover a shift, digital platforms stretch tight 
budgets and make small businesses much more efficient.
    As the online economy evolves, digital platforms are 
growing into networks referred to as digital ecosystems where 
stakeholders and consumers are tied together by digital 
services that foster information sharing and collaboration. 
These communal environments have become the catalyst for modern 
business models like the gig economy, and the next generation 
of digital marketing.
    The gig economy term used to describe an emerging labor 
marketplace defined by flexible temporary work arrangements is 
changing the way Americans view work. Through digital platforms 
like the ones that are represented by our witnesses today, 
small businesses can hire talent for short-term projects and 
benefit from a vast network of unbundled services. Skilled and 
creative solopreneurs, like web developers and event planners, 
can also use digital platforms to be hired by consumers and 
other small business owners. In fact, 70 percent of U.S. small 
businesses have hired a gig worker, and 50 percent currently at 
least have one currently working. As a result, 43 percent of 
businesses hiring gig workers are saving at least 20 percent in 
labor costs.
    Digital platforms can also help small businesses reach 
bigger audiences. In the traditional market space, small firms 
must compete with big businesses for expensive ad space. 
Digital marketing levels the playing field by lowering costs 
and expanding impact. Data sharing within digital ecosystems 
also make it easier for small businesses to reach niche 
audiences because advertisements are targeted to customers of 
similar businesses. This competitive advantage and cost savings 
enable small businesses to scale and thrive.
    However, many small firms are being left behind. In fact, 
even today, a third of small businesses still do not have 
functioning websites, and 42 percent believe that the internet 
is not relevant to their business.
    Unfortunately, many small businesses view digital adoption 
as a luxury instead of a key driver for success. As technology 
rapidly develops, the digital ecosystem is only going to become 
more deeply engrained in business and everyday life. Today, 
there are 2.5 billion people connected to the internet, and 
there will be twice as many connected by 2020. Studies have 
found that 80 percent of companies that have embraced digital 
adoption have increased profits by 85 percent. These increased 
profit margins can mean the difference between failure and 
survival. America's small businesses cannot afford to be left 
behind.
    So I hope that today's discussion will shed light on the 
many ways digital platforms benefit small businesses and 
encourage broader adoption of digital tools. Small businesses 
must join the digital ecosystem to grow and thrive.
    I thank each of the witnesses for joining us here today, 
and I look forward to your testimony.
    I would now like to yield to the Ranking Member, Mr. 
Balderson, for his openings statement.
    Mr. BALDERSON. Good morning. And thank you, Mr. Chairman. I 
am pleased to join you for our Subcommittee's inaugural hearing 
this morning. Good morning to all of you, and a special thank 
you to our witnesses for taking time out of your busy day to 
join us.
    The use of digital technology is gaining popularity with 
small firms because of the opportunities it creates for small 
businesses to compete and succeed in a rapidly changing market. 
Smaller businesses can only compete with their larger corporate 
counterparts by acting swiftly and adapting to these demands 
produced by increasingly digital modern world. Technology 
innovation is a critical component of this development and a 
subsequent advantage.
    As businesses adopt mobile computing devices and software, 
such as cloud computing systems and online conference calls, 
employees and key stakeholders are able to communicate and 
collaborate around the world in real time. Such innovations 
reduce travel cost, drastically improve efficiency, and 
eliminate barriers for startups.
    Perhaps the greatest benefit of adapting new technologies 
is the resulting financial savings. As evidenced by the past 
few decades, digital technology increases productivity, reduces 
overhead costs, and gives businesses a leg up on their 
competition. Increasingly, digital tools and platforms serve as 
the foundation of modern American small businesses. Small firms 
that use digital tools are more nimble, resourceful, and better 
equipped to engage potential customers. In fact, it has been 
proven that digital-powered businesses earn twice the revenue 
as those that don't, and are three times more likely to create 
new jobs than nondigital firms.
    The goal of today's hearing is to learn how Congress can 
unlock the vast potential of our nation's small business 
economy. I look forward to the discussion and further 
examination of how technology enables small businesses to 
succeed.
    Again, I thank my colleague, Chairman Crow, for holding 
this important hearing, and for our friendship.
    I yield back.
    Chairman CROW. Thank you, Mr. Balderson. The gentleman 
yields back.
    And if committee members have an opening statement 
prepared, we would ask that they be submitted for the record at 
this time.
    I would like to just take a minute to explain the timing 
rules for all of you. Each witness gets 5 minutes to testify, 
and the members get 5 minutes for questioning each. There is a 
lighting system to assist you. Those are the buttons that you 
see in front of you. The green light will be on when you begin, 
and the yellow light comes on when you have 1 minute remaining. 
The red light comes on when you are out of time, and we ask 
that you stay within that frame to the best of your ability.
    I would now like to introduce our first witness, Ms. Kellyn 
Blossom. Ms. Kellyn Blossom is the head of public policy at 
Thumbtack. Here, Ms. Blossom focuses on advocating for small 
businesses across the country. Ms. Blossom also served as 
Director of West Coast Public Policy at Uber, and Associate 
Director of Intergovernmental Affairs in the Obama White House. 
Before the Obama administration, Ms. Blossom served the 
Department of Homeland Security and worked on several 
congressional campaigns. Ms. Blossom received a bachelor's 
degree from Brown University, and a master of public 
administration from Harvard University, the John F. Kennedy 
School of Government. Welcome, Ms. Blossom.
    Our next witness is Ms. Olivia Omega Wallace, a resident of 
Aurora, Colorado, our hometown. Ms. Omega Wallace is brand 
consultant and speaker, co-founder of the Wallace Marketing 
Group, Denver Director of Brazen Global, and author of 
Beautifully Branded, The Girl's Guide to Personal Branding and 
Understanding the Anatomy of Brand you. Inspiring women 
entrepreneurs is her passion. Olivia helps create--helps women 
create authentically unique brands through messaging, identity, 
and brand experiences.
    Ms. Omega Wallace is a graduate of the University of 
Colorado at Boulder Leeds School of Business and has 15 years 
of corporate branding, advertising, and digital marketing 
experiences. Welcome, Ms. Omega Wallace.
    Our third witness is Ms. Erika Mozes. Ms. Erika Mozes Is a 
co-founder and Chief Operating Officer at Hyr. Prior to co-
founding Hyr in 2015, Ms. Mozes worked as a public affairs 
executive and senior communications professional in government 
and on political campaigns. Ms. Mozes received an honor's 
degree in political science from Western University. Welcome, 
Ms. Erika Mozes.
    Ms. Blossom, we will start with you. You are recognized for 
5 minutes.

STATEMENTS OF KELLYN BLOSSOM, HEAD OF PUBLIC POLICY, THUMBTACK; 
 ERIKA MOZES, CO-FOUNDER AND COO, HYR, INC.; AND OLIVIA OMEGA 
          WALLACE, CO-FOUNDER, WALLACE MARKETING GROUP

                  STATEMENT OF KELLYN BLOSSOM

    Ms. BLOSSOM. Thank you, Chairman Crow, for the opportunity 
to speak before you today. My name is Kellyn Blossom, and I 
lead public policy for Thumbtack. We are honored to be a part 
of this discussion to share our perspective on how technology 
can empower America's small businesses.
    Thumbtack is a website and an app that connects customers 
looking to hire service professionals to hundreds of thousands 
of small businesses. Now over 10 years old, Thumbtack 
facilitates millions of connections every year. These customers 
can find small businesses in nearly a thousand different 
categories, from plumbers and personal trainers to caterers and 
cat groomers.
    Thumbtack was created to solve one of the biggest 
challenges facing new small businesses. A Thumbtack survey 
found that 43 percent of small businesses say that the number 
one concern for their business is finding the right customers. 
For independent businesses, finding the next client is a 
constant concern. Thumbtack solves that problem by connecting 
customers looking for services to the small businesses that 
provide those services in their area. We haven't created new 
categories of work; instead, we use new technology to grow and 
expand the reach of small business professionals that have 
existed for decades and make their work more efficient.
    On Thumbtack, there are three features that are 
particularly valuable to the small businesses that are looking 
to grow. First, each small business that signs up on Thumbtack 
gets to create their own online profile that they can fill with 
information about their business, a story about how they get 
started, pictures of their work, and contact information. This 
profile can be found directly on Thumbtack. But even more 
importantly, it can be found through Google searches or other 
online search engines. This is crucial for small businesses who 
may not have an online presence, including the 35 percent of 
small businesses who feel that their business is not large 
enough to justify having their own website.
    Second, Thumbtack makes it easy for new customers to find 
reviews from past customers. While they are not a perfect 
measure, customer reviews have become a key factor that 
consumers expect and rely on when purchasing products or hiring 
businesses. In fact, surveys have found that over 90 percent of 
consumers, age 18 to 34, trust online reviews just as much they 
trust personal recommendations.
    And third, Thumbtack provides crucial insights to small 
businesses about how they stack up in their market. We give 
them data on how other businesses in the area are pricing their 
services, and how many customers are searching in their 
category so they can quickly understand the dynamics in their 
industry and market their services competitively.
    These features help small businesses grow their business on 
their own terms, because too often, technology businesses claim 
to be changing the game and revolutionizing the future of work 
by simply providing what amount to be often on demand minimum 
wage jobs. While these can be great transitional opportunities, 
they rarely allow individuals to build a business or expand 
their earning potential.
    Thumbtack focuses on giving individuals the digital tools 
to build not a just a job, but a career and a business that can 
scale. We often see professionals on Thumbtack start out as a 
sole proprietor, and eventually add employees and add services 
as they grow.
    And we think that technology can play a role in addressing 
other challenges that small and independent businesses face, 
like the challenge of accessing benefits.
    Earlier this year, Thumbtack was proud to become the first 
marketplace company to provide workers access to truly portable 
benefits through a partnership with the National Domestic 
Workers Alliance, and their Alia platform. The partnership uses 
a digital platform to create accounts that independent workers 
can use to access paid time off and insurance products.
    While the pilot is still in its very early stages, we are 
optimistic that we can learn important insights that we can 
share with policymakers, so together, we can work to help small 
businesses and independent workers close the benefits gap. But 
our business is about more than just numbers and data points 
and pilots and projects. It is about people. It is about people 
like Terrell King from Washington State. Terrell had spent 
decades in the service industry, but he was struggling to get 
by. He signed up to work for a big cleaning agency, but he 
wasn't making enough money to support his family. Frustrated 
and out of ideas, he turned to a family member who told him 
about Thumbtack. He created his own profile that evening with a 
picture and a story about why he loved doing his work. And that 
first day he found a customer for a high paying job.
    Within 4 months, Terrell went from barely basically to 
making ends meet to having his own thriving cleaning business, 
paying off his bills, and even bringing on employees to keep up 
with the demand. Terrell was able to use technology to take 
control of his own career and build a small business that he is 
proud of.
    People like Terrell are the reason that Thumbtack exists. 
And we believe technology is at its best when it empowers 
people to achieve their own dreams.
    Thank you.
    Chairman CROW. Thank you, Ms. Blossom. You had that 
perfectly timed, too.
    A lot of pressure, Ms. Mozes. You are now recognized for 5 
minutes.

                    STATEMENT OF ERIKA MOZES

    Ms. MOZES. Thank you, Chairman Crow. And thank you for 
having me here during National Small Business Week throughout 
which we honor the small businesses and entrepreneurs that are 
central to our economy and to our communities.
    My name is Erika Mozes, and I am the co-founder and chief 
operating officer at Hyr. I am here to speak with you about the 
importance of the entrepreneurial spirit as it relates to the 
freelance economy, and how this new economy is providing 
economic mobility for millions of Americans.
    The structure of work which we support through the Hyr 
platform allows hospitality and retail workers to freelance and 
earn extra income and portable benefits. Workers like Megan. 
Megan began working hospitality shifts through Hyr in the weeks 
leading up to Christmas. After the holidays, she sent us 
heartwarming message sharing that she joined Hyr to earn extra 
money for Christmas presents her daughter wanted most. And 
because of Hyr, she was able to give those presents to her 
daughter. But even better, after just 3 weeks of working shifts 
through Hyr, a company she worked with through Hyr offered her 
a full-time job.
    And workers like Mandy. Mandy said Hyr allows her to 
schedule freedom. Before joining Hyr, Mandy found it difficult 
to work in the hospitality industry while starting off her 
career as an actress. Because of last-minute audition calls, 
she would have to call off from her job or beg coworkers to 
cover her shift. But with Hyr, she was able to pick up and 
choose shifts that best fit her schedule.
    At Hyr, we help workers connect with businesses that are 
looking to fill any shift at any time. This helps both workers 
and small businesses alike. My co-founder and I understand both 
sides of this equation all too well. As hourly paid hospitality 
workers at one point in our careers, there were just too many 
times that we experienced too much month at the end of the 
money. And later in our careers, when we both worked on the 
business side, we struggled to find great workers given today's 
just ever shallowing labor pool.
    To help close the gap, we created a worker focus platform 
that connects the two parties. Gig workers on the Hyr platform 
are typically already working a full-time or part-time job 
within the hospitality or retail sectors, but are looking to 
earn a little bit of extra money on the side through our 
platform.
    And at Hyr, we ensure workers receive those earnings within 
3 days after they work their shift. But more importantly, we 
created a form of portable benefits called UPoints for gig 
workers that accumulate every time they work a shift through 
Hyr.
    We built the system to address the issues many gig workers 
face while they choose to enter the freelance economy. We did 
this because a growing number of Americans are choosing work 
that is just not 9 to 5. Instead, they are your Hyr pro, they 
are your Uber driver, or they are your Grubhub food deliverer. 
The gig economy has become a central cog in America's economic 
growth engine providing both entry level opportunities and 
supplemental incomes.
    At Hyr, we set out to fill a massive gap for businesses. 
Access to talented workers, fast, and relief from high turnover 
and call-offs. With same-day availability, businesses post 
shifts on our mobile app by highlighting their specific need, 
location, hourly rate of pay, and more. They review skilled and 
rated workers who apply for those shifts, and they choose the 
workers that best fit their need.
    And we set out to fill a massive gap for today's gig 
worker. Flexible schedules, supplemental income, and portable 
benefits that, again, we call UPoints. Gig workers created 
their Hyr profile admittance by highlighting their particular 
expertise, their work history, their hourly rate of pay, and 
their availability. And they are notified of available shifts 
that meet their need, and then they apply for the shifts that 
interest them most. At the conclusion of each shift, earnings 
are directly deposited in the worker's bank account within 3 
business days.
    While it can be tempting to view the gig economy as either 
primarily beneficial or primarily detrimental, there is still a 
really large gray area. And businesses like Hyr are thinking 
about broader policy questions like how we help freelancers 
access more traditional benefits. At Hyr, we strive to bring 
opportunities and individuals together, and all businesses, but 
especially small businesses who would benefit from a modernized 
system that more easily allows individuals who wish to work 
independently to connect with organizations in need of talent.
    For this reason, we have engaged with a coalition for 
workforce innovation to promote Federal policies that allow the 
connections to create between organizations and individuals 
accessible for all platforms, industries, and positions.
    The fact is the number of gig opportunities are growing at 
unprecedented rates. And technology companies like ours have 
made it easier for workers and businesses to find each other.
    By staying flexible, collaborating with each other, and 
balancing innovation with the tried and true, we can position 
ourselves to adapt and thrive in this new gig economy.
    Thank you.
    Chairman CROW. Thank you, Ms. Mozes.
    Ms. Omega Wallace, you are recognized for 5 minutes.

               STATEMENT OF OLIVIA OMEGA WALLACE

    Ms. OMEGA WALLACE. Chairman Crow, Ranking Member Balderson, 
my name is Olivia Omega Wallace, an entrepreneur and a 
marketing consultant with 20 years of experience in branding 
and advertising.
    I live in Aurora, Colorado. And I am the co-founder of 
Wallace Marketing Group. My husband and I and three contractors 
started Wallace Marketing Group specifically to help coaches 
and consultants in the health, wellness, fitness and nutrition 
industry, to grow their companies through branding, online 
marketing, and digital communications.
    Over the past two decades, I have seen the evolution of 
marketing happen before our eyes on the internet. The many 
barriers to entry started to diminish as technology increased 
allowing individuals with no special advantages take an idea, 
quickly bring it to market, hire employees, and scale with less 
up front out-of-pocket costs and less risk.
    Our clients include a vegan chef, and a naturopathic 
doctor, husband and wife team. They want to bring healthy 
living and easy cooking to their local and online global 
communities. We also have a counselor that offers art therapy 
to families in trauma. Online marketing tools allow them to 
reach their specific target audience from Aurora to Australia.
    I started my first business making and selling stuffed 
animals as a teenager. And at that time, the internet, again 
20-plus--20, 30 years ago, the internet and other online 
resources weren't available. It is incredible to look at young 
people today, such as our daughter, who has a business of her 
own. She is a sophomore in high school and has published three 
murder mystery novels for middle schoolers. She is pursuing her 
dreams early in life. This has been made possible by online 
publishing, payment, and marketing platforms that we, as 
entrepreneurs and small business owners, use every single day. 
She is releasing her fourth book later this year, thanks to the 
many digital resources at her fingertips.
    Terms like post engagement, community insights, cost per 
click page views, shared pins, retweets, channel subscribers, 
page boosts, and video views are household names for us. 
Whether I am searching for the perfect contractor on Upwork, 
teaching a workshop to 100 women entrepreneurs on how to 
leverage Facebook ads to grow their business, or coaching a 
client one-on-one on the importance of consistent content to 
grow their YouTube channel, the ability to participate fully 
and make a living as a small business or entrepreneur would be 
impossible without these online business tools.
    So I am here today to advocate for all of those small 
businesses, solo entrepreneurs, all of those independent 
artists, writers, and creators, all entrepreneurs who are using 
the internet, and the free flow of data that it offers us, to 
bring their vision to the world.
    Privacy and security are critical to both our family and 
our business. But achieving these ends must be done in a way 
that preserves the magic of commerce, as well as the community 
that brought us to this point.
    When I hear the phrase, ``it is not personal, it is 
business,'' I kind of laugh to myself. Our family is helping 
our clients provide for their family whether it is through 
online marketing or social media. So for us, it is always 
personal.
    Thank you very much.
    Chairman CROW. Thank you, Ms. Omega Wallace. I appreciate 
that.
    We appreciate the testimony all of you have shared. And I 
am going to begin by recognizing myself for 5 minutes, starting 
with Ms. Omega Wallace.
    You know, we heard earlier that not all small businesses 
have websites. In fact, a lot of them don't even think that it 
is relevant to their businesses. And I would love for you to 
share with us, in your experience working with other 
entrepreneurs, why--you know, A, what are the barriers to 
getting those websites up and having the technological savvy, 
and, B, why some don't think that it is even relevant for their 
businesses?
    Ms. OMEGA WALLACE. When we think about entrepreneurs, let's 
take a local baker, for example. They love to bake. That is 
what they know how to do. And so adding something like a 
website to their day-to-day, they think about the complications 
of putting it together, trying to find a web designer to help 
them do that, the cost of putting a website up.
    But I think the most overwhelming thing which creates a 
barrier and why they might dismiss it is that upkeep. So going 
day-to-day, month-to-month, and even year-to-year, they want to 
bake. And, again, that is what they know how to do. So we are 
adding another piece of technology in an element of marketing 
that they may not understand to a long list of things that they 
have to do, including accounting and sales tax, et cetera. So 
it starts to become very overwhelming and, therefore, 
dismissing it altogether sometimes becomes the easiest thing in 
their mind.
    Chairman CROW. Yeah. It makes sense.
    Ms. Blossom, you mentioned that Thumbtack is different than 
other digital tools, and that you are not just providing a job, 
but helping people start businesses.
    And I am really interested in creating pathways for new 
business ownership and entrepreneurship, and I would love for 
you to talk a little bit more about that.
    Ms. BLOSSOM. At Thumbtack we really think that our job is 
to provide small businesses the tools to kind of scale and grow 
and fit what needs for them. The businesses that are using 
Thumbtack are able to set their budgets and, reach out to as 
many customers as they like.
    But we really think that it is up to them. We are not about 
limiting their opportunity. We often see people that will start 
out and they are just one person. They are a dog trainer, you 
know, training dogs. But then as they get more demand and they 
get more customers from Thumbtack, they bring on additional 
people and they expand into other services, so that they can 
really grow. But they still have control over how they grow.
    And one of the things that we are really proud of is that 
it really allows people to expand their earning opportunity. 
You know, you may start out at a lower rate that you are 
charging customers to try and get more customers in the door. 
But as you are getting more and more demand, you may raise your 
prices, and you may be more selective about the type of 
customers that you want because you have control of your own 
business. And we think that that is really important.
    Chairman CROW. Okay. Thank you.
    Ms. Mozes, we talked earlier about the gig economy. And 
from your perspective, first, how is the gig economy defined, 
right? Because I think about a lot, kind of, cottage industry 
and, you know, mom-and-pop stores and shops and other things. I 
would love to hear your thoughts on how we define that and how 
it is impacting the small business environment?
    Ms. MOZES. It is a great question.
    And I think the first thing is the definition of the gig 
economy itself. Where we see that as it is a free market 
system, which temp positions are common and companies contract 
with independent workers for short-term engagements.
    In terms of how it is impacting small business. I think 
that is still to be defined, frankly, because you are seeing 
products like ours that are coming about and helping small 
businesses connect with workers when they need the most. But we 
are still relatively new. And you guys probably are aware of 
the other gig economy services that are out there, which are 
ride sharing or delivery.
    But if you are looking at delivery, in particular, for 
small businesses, you are thinking about that small restaurant 
that now is able to offer delivery, which is a whole other 
revenue stream for them that they didn't have previously. And 
it is helping them reach customers in areas that they haven't 
before.
    I think with Hyr, where we are breaking into that small 
business is when they only have five people in their 
restaurant, and their dishwasher calls off, then they have to 
turn down customers, because they are not able to have people 
actually be able to wash the dishes. Now with Hyr, they can 
bring in that extra person for those labor costs that they 
truly need.
    Chairman CROW. Thank you. And it seems like we can't have a 
conversation about the gig economy and how this is changing 
without a discussion about the portability of benefits as well. 
As people's relationship with work changes, then the 
relationship with their health and retirement benefits changes 
as well.
    Thank you.
    So I will now recognize Mr. Balderson for 5 minutes.
    Mr. BALDERSON. Thank you, Mr. Chairman. And my first 
question is pretty broad. This is to all three of you, if you 
all would like to jump in.
    I am often surprised to learn when small business owners do 
not know how the Small Business Administration can help them as 
they start and grow their businesses. For example, I am a 
cosponsor of an important piece of legislation sponsored by 
Ranking Member Chabot that would establish a program at the 
Small Business Development Center to provide cybersecurity 
training to entrepreneurs.
    Programs offered to small businesses owners, such as these, 
aren't reaching their full potential if not enough business 
owners know, and know about how to use them.
    Did any of you use any of these resources at the SBA, or 
maybe at the SBDC, or did you advise any of your customers, as 
I would say, to reach out and to search out these agencies and 
what they had to offer? And anybody can answer.
    Ms. OMEGA WALLACE. Yes, I have used some resources in the 
past, and I have advised some of my clients to do so as well.
    You asked the question of why aren't they being used or 
utilized to their fullest. And I would say there is an 
overwhelming long list of items to check off for a business 
owner to start a business, from registering their business 
name, trade name, registering their URL, et cetera. And I truly 
just believe that small business owners, solopreneurs starting 
out are overwhelmed. And on the long list of things to do, they 
look at what do they absolutely have to do this minute on this 
day to get started, and things like cybersecurity training can 
fall by the wayside, unfortunately.
    Mr. BALDERSON. Ms. Blossom?
    Ms. BLOSSOM. Sure. I think one of the things that we 
struggle with is there is often a misperception among the small 
businesses using our platform, the SBA--their only purpose is 
to provide loans, and a lot of the businesses on Thumbtack are 
not capital intensive, because they are service businesses. If 
you are a personal trainer, you might need a set of weights and 
a park to get started. And, you know, you might think that SBA 
loan is not applicable for you. And so we are trying to educate 
the professionals using our site about all of the other 
services that SBA provides in terms of consulting, in terms of 
helping folks write a business plan beyond just the financial 
aspects, to let them know the full reach of the agency.
    Mr. BALDERSON. Okay. Thank you.
    Ms. MOZES. I think I would echo the same sentiment about 
just small businesses owners when they are first getting out. I 
know when we first started, it was so overwhelming for us to do 
everything from creating the app itself, creating the 
technology, doing the website. Thinking about actually just 
applying for a loan would just be very overwhelming for us. In 
terms of the workers on the Hyr platform, the majority of the 
workers on our platform are already working full-time or part-
time within the industry, so they are only using Hyr as 
supplemental income. So that sort of benefit would not apply to 
them, just because they are only picking up a few shifts a 
month.
    Mr. BALDERSON. Okay. Thank you all.
    My next question is for Mrs. Wallace. I met with President 
Jake Ward and other members of the 3C team yesterday, and who 
are also joining us here this morning. And one thing that we 
discussed was the need for data privacy legislation.
    In your opinion, what would the successful data privacy 
legislation entail?
    Ms. OMEGA WALLACE. In my opinion, it would entail one 
overarching law or bill that small businesses can follow versus 
having to understand and comply to something State by State, 
where most all digital and online businesses cross State lines 
and have clients all over the country. So that is what I would 
recommend.
    Mr. BALDERSON. And that is a great recommendation. Thank 
you.
    Did anybody else want to add to that?
    Ms. BLOSSOM. I would just second what----
    Mr. BALDERSON. Yes. I know. She nailed it, so----
    Mr. Chairman, I yield back my remaining time.
    Chairman CROW. Thank you. The gentleman yields back.
    I will now recognize the gentlelady from Pennsylvania for 5 
minutes.
    Ms. HOULAHAN. Thank you, Mr. Chairman. And thank you for 
allowing me to ask my questions a little bit out of order. My 
questions first are for Ms. Blossom, and also Ms. Mozes.
    You each spoke about--something about portable benefits in 
your particular case and about points--a point system in your 
case for what amounts to portable benefits and healthcare.
    Can you give me a little bit more detail about how that is 
executed in each of your organizations, and also, how we as a 
Congress might be able to leverage that kind of idea to help 
people in a gig economy with portable benefits and such?
    Ms. BLOSSOM. Thanks. We are so happy to talk about this 
topic.
    Earlier this year, we partnered with the National Domestic 
Workers Alliance who have created an online platform called 
Alia, designed primarily for house cleaners. And the way that 
the platform works is cleaners can set up an account, and their 
customers can make contributions into their account that they 
can then use to--use the credits for a number of products, 
including paid time off, life insurance, disability insurance, 
and critical accident insurance. It is a small step, and we 
know that it is not solving the full complement of benefits 
challenges that workers face, but we think it is an important 
step to take to try and move the conversation forward and see 
what we can do.
    As for what Congress can do, you know, there has been a 
bill from Congresswoman DelBene on portable benefits to set up 
a pilot fund that would help set up pilot projects in States 
and fund them. We think that that is a fantastic idea. We don't 
claim to have all of the answers or solutions on how to do this 
yet, but we are openly looking for partners that are interested 
in solving this problem with us.
    Ms. HOULAHAN. Thank you.
    And Ms. Mozes.
    Ms. MOZES. It is a great question, and thank you for asking 
it.
    I think when we first looked at creating Hyr, one of the 
big things we wanted to do was, because we have gig economy 
workers, was to create a system that we would be able to 
provide these benefits to them.
    Today, the way that the benefits look is they are called 
UPoints. And within the UPoints, we collect money from the 
business, and we take a percentage of those earnings and we 
give them back to the workers in terms of a points-based 
system. What they are able to redeem those benefits for today 
is what we call a UDay. It is essentially a $75 credit which 
gives them a paid vacation day. By the end of this quarter, we 
are also going to be partnering with an insurance company which 
would allow them to put those benefits towards insurance, so 
accident insurance.
    We would love to be able to explore options to also be able 
to provide, like, that traditional healthcare benefit piece. 
Again, it is looking for clarity among legislators as well to 
figure out how we are able to do that within a gig economy 
work. But we do believe that the points-base system that we 
have created will allow workers to actually take part of their 
earnings, like on addition, because we are giving them these 
points in addition to what they are earning for their hourly 
wage, and then decide where to allocate those to what matters 
most to them, whether it is insurance, a paid day off, health 
insurance, or other benefits that hopefully, as we grow, we 
will be able to add to the platform.
    Ms. HOULAHAN. So at this point in time, neither of you all 
have figured out how to crack the nut of healthcare insurance. 
Is that a fair statement?
    Ms. BLOSSOM. That is fair. We know that a lot of the 
professionals on Thumbtack are using the ACA exchanges to get 
their health insurance. About a quarter of the professionals 
that started on Thumbtack said that accessing benefits was the 
biggest challenge in making that leap to entrepreneurship. And 
about 14 percent of them directly attribute the ACA to them 
being able to start their own business. It has been a great 
step. But we know as premiums are increasing and it becomes a 
little bit harder to access that, that there is more work that 
we need to do there.
    Ms. HOULAHAN. So I actually did read in your testimony 
about the 14 percent attributing, you know--I guess assessing 
that as being a positive thing. It actually begs the question 
how many didn't think it was a positive thing. Was there a 
larger portion that didn't like the Affordable Care Act? Or did 
you ask that question?
    Ms. BLOSSOM. We didn't ask that question specifically. But 
because small businesses and professionals come from a variety 
of backgrounds, a number of them are getting health insurance 
through a spouse. Some of them are under 26 and still on their 
parents' plan. So they are getting insurance from a variety of 
ways.
    But for those that didn't have access to insurance, or that 
were relying on insurance from a previous kind of traditional 
9-to-5 job, being able to know that they were going to be able 
to purchase insurance on the individual market was a huge 
relief for them in kind of getting over that barrier.
    Ms. HOULAHAN. Thank you.
    And with the last 40 seconds of my time. Ms. Mozes, if you 
could kind of speak to us a little bit about freelancers union 
and how you work with them and whether or not there is anything 
that the government can learn from that as well?
    Ms. MOZES. We don't currently work with the freelancers 
union. That being said, we would love to work with them more 
closely. They are doing some really great things for 
freelancers in America, including looking at exact policy 
questions that you have asked today about healthcare, and how 
they will be able to provide that to this huge growing segment 
of workers that have decided to work this way.
    Ms. HOULAHAN. Thank you. And I appreciate the time.
    I yield back.
    Chairman CROW. Thank you. The gentlelady yields back.
    The gentleman from Tennessee is now recognized for 5 
minutes.
    He stepped out. Okay.
    The gentlelady from Iowa is now recognized for 5 minutes.
    Ms. FINKENAUER. Thank you, Mr. Chair.
    I was really excited about the Subcommittee hearing today. 
I know, obviously, the gig economy is becoming, you know, a 
bigger part of--well, for millennials like myself and young 
folks across the country, you know, a new pathway where we can, 
you know, get creative about our future and--but it makes it 
difficult sometimes, given the policies that are out there and 
folks thinking about retirement and healthcare and childcare 
and paid family leave and all the things that go into it. So 
thank you so much for being here and chatting about those 
topics.
    But I got really excited, Ms. Wallace, when you started 
talking about marketing. And it took me back to a conversation 
I recently had with some folks back in Iowa when I was doing a 
small business tour, visited a company in Maquoketa, is one of 
our smaller towns that is working really hard in their Main 
Streets and, you know, trying to keep folks in Maquoketa and 
bring them back home. And the company that I talked to, you 
know, they had been around for decades and have done a great 
job. They do commercial washers. But then, they also work with 
other, you know, entrepreneurs that come to them and have 
ideas.
    You know, one of the things I heard about was a gentleman 
from Cascade, which is an even smaller town than Maquoketa in 
Iowa, who had an idea for shredding--a shredding machinery when 
it comes to tearing down houses. And just being creative about 
how they do that more effectively, and it is a wonderful idea. 
Excited that this company was willing to help him create that 
product and asked them, you know, how is that going? Has he 
been able to grow?
    And one of the things we heard that the biggest issue was 
the marketing side of it, and how he was going to have access 
to that. Because, again, you guys are exactly right, Ms. Mozes 
and Ms. Wallace and Ms. Blossom. When you are working hard on 
your business, the last thing you are thinking about when, you 
know, you are filling out all the paperwork all that, is then 
how do you take that next step.
    Is there anything that you guys could see the Small 
Business Development Centers, or the SBA, start getting more 
involved in to encourage folks to have access to marketing and 
take it to the next step? And is there--what should we be 
looking out for here? And is there any--are there any programs 
that we are missing, or things that you think we should be 
doing that we are not doing, especially when it comes to 
connecting marketing to the folks who need it?
    Ms. OMEGA WALLACE. I don't know that there is anything 
specific that is missing. But I do know that marketing is the 
very last thing that businesses think about when they are 
building. They think about creating the app and building the 
technology and creating the products, et cetera. They open the 
doors, whether virtually or physically, and wait. And the whole 
notion of, you know, build it and they will come is definitely 
not what happens when you start a business.
    So when they open their business and they wait for 
customers and then they think, oh, yeah, I should probably do 
that thing called marketing.
    So I think the message needs to be, right when they start, 
don't forget about this major piece. Don't start this major 
piece, you know, at the end, but think about your marketing as 
part of your entire business development now.
    Ms. FINKENAUER. And I know, Mr. Balderson, you touched on 
this quite a bit too, just how do we better educate folks about 
the programs that are out there.
    I know you guys are doing your best, again, being on the 
ground every day with our entrepreneurs and folks who are, you 
know, taking that next step and that risk. But what more can we 
be doing as a Congress to make sure that we are educating 
folks?
    Ms. Mozes or Ms. Blossom.
    Ms. MOZES. I mean, I think one thing that you could do is 
work with kind of more, like, community organizations that are 
better at talking to businesses. So, for example, I know for us 
with Tech New York City, that was a resource that we definitely 
reached out to. And they are very good at disseminating 
information to technology companies.
    But I am sure that it is really about knowledge, right? And 
I think that a lot of small business owners as they are 
building businesses, like when I first started Hyr, it was kind 
of blinders on me building the business, not looking out and 
figuring out what else is out there to help me. And I think 
marketing--you are completely right. It is the hardest thing 
for a small business owner to wrap their head around, because 
you go online and you start reading about all these things you 
could doing with ad words or, you know, Facebook ads, or 
whatever it might be, and it is overwhelming. So you just don't 
do anything instead of doing something.
    Ms. FINKENAUER. Yeah. Well, thank you.
    I yield back.
    Chairman CROW. Thank you. The gentlelady yields back.
    The gentleman from Pennsylvania is now recognized for 5 
minutes.
    Mr. JOYCE. Thank you, Mr. Chairman. This question is for 
Ms. Blossom.
    Small businesses are always at the forefront of what is 
next, because they have to stay ahead of the larger 
counterparts.
    What new technology is out there that will make your small 
business and many small businesses even more accessible to 
growth?
    Ms. BLOSSOM. I think that that is a great question, and I 
think it is both about utilizing new technology but also using 
a lot of the existing technology that is out there and making 
small businesses see how it can work for them. For example, we 
were in Colorado, and we met two great guys who started a deck 
building business. And on a whim, they started making YouTube 
videos of themselves building decks and now they have tons of 
followers. They have gotten lots of customers, because people 
are weirdly very interested in watching people watch decks. But 
they have used social media in a nontraditional way to help 
build their business.
    So I think we can encourage companies that might not think 
that either social media, or online presence--it could be 
important for them in business to really kind of expand their 
reach. And to what my fellow panelists said, use that as a 
marketing tool to let more customers know about their 
businesses.
    Mr. JOYCE. Specifically, as someone who has built decks 
with my own hands, I have never watched a YouTube video. 
Perhaps the deck would have been more stable if I had.
    But you bring a great point, and I am going to ask each one 
of you to address that, if you would for me, please.
    I come from South Central Pennsylvania, an incredibly rural 
area where there are over 5,000 farms, and these are all small 
businesses.
    Please touch on the importance of accessibility to rural 
broadband in your particular concerns, and in the concerns 
regarding small businesses throughout your areas?
    Ms. BLOSSOM. Sure.
    We think broadband is incredibly important, because we know 
that the internet is often the first place that people are 
turning now when they are looking for businesses. We met a 
person this week who had a lawn care business, and he was 
connected through Thumbtack to his neighbor who lived across 
the street who didn't know that he had a lawn care business. 
But because of the internet and because they were able to 
connect online, they got new customers and helped build their 
business.
    So, rural broadband is incredibly important, because we 
know that that is where everybody is going to turn to make sure 
that those people are able to access the internet and have an 
online presence, so they are not missing out on potential 
clients.
    Ms. MOZES. I would echo that sentiment in terms of just 
that importance of connecting people. We hear from businesses 
all the time that are outside of large cities about how they 
would love to be able to access Hyr. One of the big reasons why 
we would never--well, not never, but why we can't go to some of 
these smaller communities is that we are an app-based business. 
So if people don't have access to broadband, they don't have 
access to potentially even downloading an app, or being able to 
connect them.
    But sometimes it is those small businesses in rural 
communities that need a service like Hyr more than a business 
that is in, you know, downtown Manhattan, because they do need 
to access people. So I think that making sure that people have 
access to broadband is of utmost importance across the country.
    Ms. OMEGA WALLACE. And I would just add to what they have 
said as far as marketing connection, but also education. And I 
think--I know for myself and for a lot of entrepreneurs, the 
education and training they are receiving, they are finding 
online. And so when you don't have access to even high-speed 
internet or broadband to stream videos to learn techniques and 
other elements of running your business, then that is a 
hindrance as well.
    Ms. BLOSSOM. If I could just add on to what she said.
    Mr. JOYCE. Absolutely.
    Ms. BLOSSOM. We also have been surveying the professionals 
in the states. Asking them when you need information about your 
business, where do you turn? Do you turn to the SBA? Do you 
turn to your local chamber? And increasingly, people are 
turning to the internet, to Facebook groups, to YouTube videos 
to get information from fellows in their industry, and then 
just other business owners about how to solve challenges that 
we have talked about throughout this panel.
    Mr. JOYCE. I might just indulge just a few more seconds.
    If I asked a yes and no question for each one of you, if 
there was more access to internet through rural broadband 
expansion and accessibility, would that make your businesses 
stronger and grow more? It is a yes-no.
    Ms. BLOSSOM. Yes.
    Ms. MOZES. Yes.
    Ms. OMEGA WALLACE. Yes.
    Mr. JOYCE. Thank you all for being here today.
    I yield back.
    Chairman CROW. Thank you. The gentleman yields back.
    And I will say with confidence, nobody would want to watch 
me build a deck on YouTube. I can assure you of that.
    The gentlelady from Kansas is now recognized for 5 minutes.
    Ms. DAVIDS. Thank you so much. I didn't realize there was 
so much deck building experience here. I have built a couple of 
decks myself.
    Mr. JOYCE. We will have to talk afterwards.
    Ms. DAVIDS. Yeah. We will collaborate on that.
    So, first of all, thank you, Chairman Crow, for leading 
this important discussion today.
    The digital ecosystem has definitely opened up new 
opportunities for entrepreneurs and small businesses, you know, 
from founding a startup to existing businesses growing and 
helping existing businesses. And I think the biggest piece that 
we are seeing here is that so many people across the country 
are having access to opportunities to start their own 
businesses. And, in fact, Susan Cooley, who is--I represent the 
district that she has started a business in was, you know, 
someone who, like a lot of folks, saw a need. You know, she is 
looking for a reasonably priced comforter, right, and then 
discovers that there is a demand for a specific kind of product 
and decided to, you know, start an eBay store. And I think a 
lot of people have gone down this path, and now has grown that 
from, you know, offering clothing and accessory and household 
goods at Sincerely Susan, to now having a brick-and-mortar 
store and having 15 employees. And I think that those are the 
kinds of stories that we need to make sure that we keep in mind 
as we think about how do we help other folks who are looking to 
solve a problem, have that entrepreneurial mind-set.
    And one of the things that I kind of wanted to follow up on 
is this concept of broadband and access to broadband. Thank you 
for answering the question, because now I get to ask follow-ups 
to just like pull out a little bit more information.
    I was wondering if, when you think about broadband as 
someone--as folks who actually are, like, helping benefit other 
small business owners, do you find that you are kind of, like, 
waving your arms and saying broadband is important? Or do you 
feel like there are a lot of people who are also recognizing 
that, you know, Oh, I would definitely start a business if I 
had access. Or is this an instance where we need to be getting 
out there and explaining to people that small businesses would 
grow if there were more broadband access. Does this make sense?
    Ms. Wallace, I would----
    Ms. OMEGA WALLACE. I think so. My first, you know, instinct 
on that and thought is that people are aware that it is 
important. And I have heard too, we have a lot of, kind of, 
rural areas in Colorado that, you know, if the--I had broadband 
or if I had, you know, reliable internet, then I would be able 
to do these things.
    So I don't know that we have to wave our hands. I would 
think that people know that it is needed.
    Ms. DAVIDS. Yeah. So one of the reasons I ask is because a 
lot of times I think what ends up happening is that, especially 
legislators and lawmakers make a lot of assumptions about what 
people already know. And as the Small Business Committee, I 
think--and, you know, we are focused on innovation and 
workforce development is, how do we make sure that folks have 
access to information if rural broadband is a huge issue and, 
you know, the Congress now knows about it, it tells me that 
there is probably a lot of people on the ground who are in the 
weeds doing the work that have been trying to sound the alarm 
for a long time.
    One of the things I am wondering about is whether or not 
any of you have made use of the SBA programs, whether it was 
Small Business Development Centers, loan programs. And then as 
the follow-up, have your--whether they are customers or folks 
that your helping connect, are they making use of them? Because 
I often hear that people realize that there was this available. 
We will start with Ms. Blossom.
    Ms. BLOSSOM. Sure. We know that--we have hundreds of 
thousands of professionals. We know that many of them are using 
SBA, but we also know that it is probably underutilized. And so 
we are open to all ideas on ways that we can better educate 
people about the different resources that are available, 
because, you know, as we have spoken, time is the biggest 
resource for small businesses owners, and they are often so 
frenzied that they don't know that the SBA would be a resource 
for them to look to. So, you know, anything we can do on the 
education front to just let them know about the array of 
services, I think would be really helpful.
    Ms. DAVIDS. And so, to tie those two things together, the 
reason I ask that is because, when access to--access to 
information is so reliant on broadband access or internet 
access, you know, the Small Business Development Centers can be 
a place where people might be able to make use of that. So that 
is why I was curious. How much are you seeing use of that in 
your work?
    And I don't know if Ms. Wallace or Ms. Mozes had anything 
additional----
    Chairman CROW. The gentlelady's time has expired. But we 
will----
    Ms. DAVIDS. Okay. No. Thank you.
    Chairman CROW. We will have a second round of questioning, 
so you can hold that--hold that question and thought.
    I will recognize the gentleman from New Jersey. Thank you 
for joining us. If you have some questions.
    Mr. KIM. Thank you, Mr. Chairman. Yeah. Absolutely.
    Well, look, thank you, Chairman, Ranking Member, for 
holding this hearing. I really appreciate it. And I actually 
might be following up on some of that.
    But I have been deeply interested in the innovative ways 
the small businesses can use digital services to grow and adapt 
to an ever-changing tech landscape. It is something that I hear 
a lot about from folks in my own district as they are trying to 
figure this out. And once we are talking about things that we 
can be doing on infrastructure and other things, making sure 
that we are looking out for broadband. I don't know how that is 
going to impact, so----
    You know, Ms. Wallace, I just want to start with you. You 
know, you shared ways that small businesses can use digital 
tools to help them reach more customers. Can you explain how 
the evolution of digital marketing has benefited small 
businesses in particular?
    Ms. OMEGA WALLACE. Sure.
    When I started doing marketing, I worked with really big 
clients that had millions of dollars to do traditional media, 
to buy TV ads and newspaper ads.
    Today, relying on simply traditional media would be 
impossible for small businesses. So now allowing myself and 
clients to be able to buy Facebook ads for, you know, $100, or 
do a YouTube video, or do even YouTube ads or boost post on 
Pinterest, allow them to reach a broad yet targeted audience 
for a fraction of the cost. So that has changed tremendously 
over the last 10 years, and even over the last couple of years.
    Mr. KIM. You mentioned, you know, Facebook and YouTube as 
some of these different platforms.
    What are some of the other platforms that you have seen 
been successful, either in your own work, at your family's 
businesses? I would just be--you know, just get a better sense 
of that. And how critical is it, you know, to having that 
social media presence for small businesses now?
    Ms. OMEGA WALLACE. You know, I could go on and on about 
LinkedIn as well as--I mentioned Pinterest already. Constant 
contact in Mailchimp as far as email marketing and tying that 
back to social media. The list goes on. And I would say it is 
100 percent critical to the success of businesses and the 
growth of businesses to have an online presence, and 
specifically, have a social media presence.
    Mr. KIM. Ms. Blossom, over to you.
    You know, we are at this point now where, you know, you 
have billions of users, you know, accessing these digital 
platforms on their phones and on their computers. You know, as 
these digital platforms gain users, what can small businesses 
do to try to stand out amongst the crowd? You know, how is it 
that they can kind of penetrate through and make their mark?
    Ms. BLOSSOM. Absolutely.
    So, I think as people turn more and more to the internet, 
they expect more and more information. And one of the most 
important things that we can do as a platform is give small 
businesses the tools to put as much relevant information online 
and in a searchable format as we can, so they can upload photos 
of your work.
    If you are wedding photographer, you are going to want to 
put lots of examples on your profile. And you may not have the 
money to create your own multimedia website. You know, if you 
are a personal trainer, you might put videos of how you have 
worked with other clients on there, so people looking at your 
business might find--see if you are a good fit.
    And so it is incredibly important. And I think one of great 
things about digital tools is it lets people know that there 
are other options than traditional big businesses. If you had a 
plumbing emergency, and you thought to yourself, I don't know 
where to get a plumber, you might think, I will just call Roto-
Rooter, because I have heard of them or seen the commercial. 
But if you went online and searched plumbers near me, you would 
find Thumbtack, and then you might get 10 to 15 options of 
small businesses that could do the job, perhaps quicker and 
more efficiently.
    And so opening people's ideas up to other small business 
options that they might not have thought of is one of the best 
things about the internet.
    Mr. KIM. Yeah. You know, certainly talking to some 
businesses in my district as I went around earlier this week, I 
mean, I think that is something that they were trying to figure 
out is, you know, how do they--how do they get that word out? 
How do they just, you know, get that connection with folks?
    And the ones that have been successful have been ones that 
have been able to kind of build a community around them. You 
know, be able to use these platforms to be able to really 
accentuating and create the, not only loyalty in terms of 
customers, but what I found really exciting was just really 
seeing the camaraderie and the connectedness between small 
businesses owners themselves, you know, using these platforms 
to be able to highlight each other and really trying to, you 
know, create that kind of atmosphere.
    So I am certainly, you know, still trying to learn some of 
these best practices. And I appreciate all of you coming out 
and sharing some of those with us.
    I will yield back.
    Chairman CROW. Thank you. The gentleman yields back.
    At this time, I would like to just start a brief second 
round of questioning. I think there is a few follow-ups that we 
all have that we would like to dive into a little bit more.
    So I will start by recognizing myself for 5 minutes.
    And I wanted to pick up on something that the Ranking 
Member, Mr. Balderson, alluded to earlier. And it is a concern 
that I share. He brought up the issue of digital privacy 
regulations. And this is part of a broader issue, that we have 
this tendency to treat all businesses the same, with respect to 
regulations and rules. And yet, we know that a small- and 
medium-size businesses have a much harder time bearing the 
costs and the burdens of compliance than a Fortune 500 company 
does.
    So specifically with regard to data privacy, whether you 
all have any experiences with compliance and the cost of those, 
and how that might have impeded your growth. And then more 
generally, if you had experiences with regulations that could 
be more appropriately scaled to your businesses and kind of 
where you are in your growth cycle.
    Ms. BLOSSOM. I think you very accurately summarized that. 
With data privacy regulation, we obviously support the goals. 
And for our businesses to succeed, people have to feel 
comfortable using the internet, and feel comfortable that 
companies like ours and other actors are going to take good 
care of their information.
    But the big companies, they are going to be able do to it. 
They are going to be able to hire enough compliance experts and 
lawyers, and they have the means to do so. For midsize 
companies like Thumbtack, and even the small businesses that we 
serve, some of these data privacy regulations, while very well-
intended and have good goals, are to going to be incredibly 
cumbersome. And particularly, as we mentioned before, like if 
there are 50 different sets of data privacy regulations, it 
will essentially prevent small and medium businesses from 
operating across State lines, because they just won't be able 
to spend enough resources on compliance information as they 
need to.
    Ms. MOZES. I would echo those sentiments in terms of just 
us ourselves as Hyr, as a company, we are still growing. We are 
very diligent in terms of the data that we collect, because as 
you can imagine, we are collecting data on people's--where they 
are working their shifts, even geolocations of where workers 
are going. And we are very, you know, again, diligent about 
keeping that information and making sure that it is very 
intact.
    But as more regulations are put on us, it could impede our 
growth in terms of what we would potentially have to report, 
how we would do that, you know, having to hire new technology 
people just to comply with those regulations. So I think most 
companies want to ensure that we are compliant with people's 
privacy information, but just considering that when regulations 
are being built at the Federal level would be a great thing.
    Ms. OMEGA WALLACE. And just quickly to add to that, at one 
point in time years ago, as--you know, building websites and 
having people have an e-commerce website, they had to process 
credit cards through their own processor in the back end, and 
now we are able to heavily rely on third parties to do that 
processing for us.
    So I will use my daughter as an example. She is selling 
books at a school fair, and she is using Square. We rely on 
Square to have the capability to keep data safe. And we also 
rely on Square to have the lawyers and the ability to fight 
that when needed knowing that we wouldn't be able to if it was 
placed on the shoulders of the small businesses owner 
themselves.
    Chairman CROW. Thank you, all of you. And, Ms. Omega 
Wallace, I have this feeling that I will someday be working for 
your daughter, so--very impressive young woman.
    I will now yield to Mr. Balderson, the gentleman from Ohio.
    Mr. BALDERSON. Thank you, Mr. Chairman.
    Ms. Wallace--and I was appreciative of the Chairman. That 
was a great question. So I am old school. I am in my late 50s. 
I am that end of that baby boomer line. And for me, to buy 
online is a challenge. For me, I like to still touch that 
piece, that shirt I want to buy or that piece of equipment I 
want to buy. You have been doing this for a long time, 
obviously. As Chairman Crow said, your daughter now--I will 
probably be dealing with her, or my son will. And my son gets 
on me about not being able to buy online yet, and he is 32, and 
that is the only way he does business.
    Tell me the difference, when you encourage folks to get 
into this online business compared to the bricks-and-mortar 
stores that we are seeing decreasing more and more, I can no 
longer buy a dress shirt in my hometown, because the last dress 
shop just closed. I say dress shop. Men's shop, that--you know, 
and it is a struggle. So tell me the advantages to why this is 
all happening. I know the low cost. But give me some other 
ideas that you encourage some of your clients to go online for.
    Ms. OMEGA WALLACE. When you go online, you expand your 
territory by leaps and bounds. So I actually work with quite a 
few brick-and-mortar businesses in Denver, Colorado, who are 
limited to that corridor or that neighborhood in their brick 
and mortar. Going online opens up a whole new world, literally, 
to them to be able to scale and to be able to, overall, 
increase revenue.
    Also, as a consultant or as a service provider, if I am 
doing consulting one-on-one, I max out my time after I meet 
with five people in a day. Whereas, if I can go online and 
expand that to a group setting or have, you know, a Facebook 
group and do live chats with groups of people, I can grow and 
expand my business and move out of that one-to-one service.
    Mr. BALDERSON. All right. You almost sold me, but not 
quite. But thank you.
    Mr. Chairman, I yield back my remaining time.
    Thank you all very much.
    Chairman CROW. Thank you, Mr. Balderson. I can't help the 
fact that you are old school, though.
    Thank you.
    The gentleman yields back.
    I will now recognize the gentlelady from Kansas for 5 
minutes.
    Ms. DAVIDS. Thank you, Chairman.
    So I know the issue around privacy, again, I am just, like, 
this is awesome. I love the--I can just do follow-ups. What are 
some specific measures or--I don't know if there is already 
policy or legislative ideas that are being put out there that 
you could share with us about how we take into account 
compliance for the much smaller businesses, and how we make 
sure that we are not impeding people from being able to do the 
kind of business that we definitely need, because, you know, if 
you are--when you were talking about depending on Square to 
really adhere to privacy concerns, you know, I think that there 
is some, probably, like, lines of liability that we could be 
talking about. But are there some specific pieces of policy 
that you think that we need to know about here?
    Ms. BLOSSOM. What we have seen in some of the State bills 
and some of the frameworks that we have seen coming out of 
Congress is different thresholds for compliance on the privacy. 
Either a revenue threshold or an employee number threshold that 
would really help the smallest businesses, depending upon where 
that threshold is set and let them think about privacy as they 
are getting bigger. And hopefully, as they grow, they will then 
be part of that compliance scheme. But giving some help to the 
really small ones who might not hit those thresholds yet.
    Ms. MOZES. Yeah. I think that thresholds on employee 
numbers as well as potentially even, like, revenue numbers. For 
us, much like you use Square, we use Stripe. Stripe is actually 
used by most big tech platforms now, so that we are not 
collecting any financial information from any of the workers on 
our platform. Everything is actually dealt through them. And 
that is a huge help for us as a business, because we don't have 
to deal again with any of those--that financial information.
    I think it more comes down to when you are collecting 
people's addresses, their telephone numbers, even when we are 
thinking about the geolocation of the workers that we are 
carrying from, that kind of stuff could get potentially 
cumbersome if we are looking at different types of legislation 
that could be coming up.
    Ms. OMEGA WALLACE. And I would just agree with what they 
both said.
    Ms. DAVIDS. Thank you.
    I yield back.
    Chairman CROW. Thank you.
    The gentlelady yields back.
    I will now recognize the gentleman from Pennsylvania for 5 
minutes.
    Mr. JOYCE. Thank you, Mr. Chairman. And I do want to thank 
Chairman Crow, and I want to thank Ranking Member Balderson for 
bringing you in front of us here today.
    I think that I learned something from what you presented to 
us. Small business is a bipartisan advocate for you. And I have 
often said that we are bridge builders. But today, I have 
changed that. We are deck builders. With Representative Davids, 
that we understand the importance of working together. We are 
your service providers. That is your take home message from me 
today. We work here with both sides of the aisles, 
unencumbered, to advocate for the small businesses in the 
United States.
    Now, I would like to finish with a pop quiz. But I will 
tell you there is no wrong answer. But it is a question for 
each one of you, and it is important for me to take home. Now, 
as someone who didn't finish their formal education until I was 
in my early 30s, I am used to pop quizzes. And you might not 
have thought this was going to happen to you today, but I would 
like to allow you to indulge me, please.
    Regarding the growth of your individual companies, if you 
had to choose between one of the three following, which would 
you choose? Again, I will preface by saying there is no wrong 
answer. Would you ask for more capital for that growth? Would 
you ask for better broadband access for your companies for that 
growth? Or would you ask for better access to trade 
associations?
    So better broadband, more capital, or better access to 
trade associations. What works best for you?
    I will start with you, please, Ms. Blossom.
    Ms. BLOSSOM. It is a very interesting question. I think for 
us, we are lucky to have the capital that we need to grow. And 
so broadband would actually be interesting, because we don't 
know how many potential Thumbtack service providers and 
customers are out there that aren't using our platform or 
aren't aware of the opportunities, because they don't have 
access. So for us, that is really an unknown and a very 
interesting question that we would love to explore.
    Mr. JOYCE. So, Ms. Mozes, it is your chance to tell us why 
these are important to you and which is the most important?
    Ms. MOZES. I think it is a great question for us at our 
stage in our business capital. We are at this point in our 
business turning down business because we don't have enough 
capital in order to hire enough people to service all of the 
small businesses that want to use us to access labor. But we 
are in a unique position because we are a growing tech company. 
And so if you usually ask any growing tech, capital would be 
number one. But I think all three are important for businesses 
to grow in America.
    Mr. JOYCE. Thank you. Ms. Wallace.
    Ms. OMEGA WALLACE. We are in an interesting situation, but 
also a situation that a lot of business owners face is that my 
husband's income and my income is the same income from our 
business that we bring in. So I would have to say capital, 
because right at this moment, we are at a place where we are 
juggling three contractors and bringing in the right amount of 
business to be able to pay them, pay ourselves, pay our 
mortgage. And so, it is a very tricky balance of cash flow. So 
capital would be helpful so that we can scale, grow more, bring 
on more people and help provide marketing to more small 
businesses.
    Mr. JOYCE. Thank you all, and thank you for being here 
today.
    Chairman Crow, I yield my time.
    Chairman CROW. Thank you. The gentleman yields back.
    I will say, John, this deck joke is going to be good for a 
long time, I can tell.
    I would like to thank all of the witnesses for sharing 
their time with us today. Digital platforms provide 
transformative resources for entrepreneurs to build and grow 
businesses. That is very clear from our discussion today.
    The collaboration fostered through digital ecosystems has 
improved both the cost and efficiency of digital marketing and 
employment. These costs and time savings are particularly 
helpful for small businesses that are burdened with tight 
budgets and limited resource. But small businesses cannot 
unlock these opportunities if they fail to adopt digital tools. 
That is why the members of this committee must raise the 
awareness of the value of digital platforms and encourage small 
businesses to become active participants in the ecosystem, but 
also identify ways to lower the hurdles as well and not have us 
stand in the way of your entrepreneurship and your growth.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record. And without objection, it is so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    [Whereupon, at 11:13 a.m., the Committee was adjourned.]
    
    
                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
